GR-50-98-011
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANTS TO THE CITY OF HAMMOND, INDIANA, POLICE DEPARTMENT
Grants 95CCWX0248, 95TCWX1095, and 96CMWX0583
Audit Report Number GR-50-98-011
March 31, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Hammond, Indiana Police Department (HPD). HPD was
awarded $350,000 under COPS Accelerated Hiring, Education, and Deployment (AHEAD) to hire
5 officers, and $350,000 under the Universal Hiring Program (UHP) to hire 5 officers. In
addition, HPD was awarded $151,946 under the Making Officer Redeployment Effective (MORE)
to hire 4 civilian personnel to replace and allow redeployment of the same number of
officers. HPD was awarded an additional $10,000 under a TROOPS TO COPS grant to train two
recently separated members of the armed forces as law enforcement officers. These officers
were hired under the COPS AHEAD grant. The purpose of the additional officers is to
enhance community policing efforts. 
 
In brief, our audit determined the following:

- The number of officers performing community policing activities did not increase by
  the number of positions funded under the AHEAD, UHP, and MORE grants. As a result, we
  questioned reimbursements of $53,916.
- Budgeted, rather than actual costs, were submitted for officer and civilian
  positions. Accordingly, we questioned salaries of $1,780.
- The City of Hammond did not adequately establish and maintain a system of budgeting
  and accounting for COPS grant expenditures.


- Financial Status Reports were not submitted timely.

 
#####